Report No. D-2011-RAM-002               November 9, 2010




    American Recovery and Reinvestment Act of 2009
   Funds Properly Used to Repair the C-5 Aircraft Ramp
     and Perimeter Drainage at Westover Air Reserve
                  Base, Massachusetts
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFRC                          Air Force Reserve Command
COMPEC                        Command-Wide Operations and Maintenance Project
                                Execution Contract
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
FPDS                          Federal Procurement Data System
FSRM                          Facilities Sustainment, Restoration, and Modernization
                                Program
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
OMB                           Office of Management and Budget
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRG INIA 22202-4704 




                                                                    November 9, 2010

MEMORANDUM FOR COMMANDER, U.S. AIR FORCE RESERVE

SUBJECT: American Recovery and Reinvestment Act of2009 Funds Properly Used to
         Repair the C-5 Aircraft Ramp and Perimeter Drainage at Westover Air
         Reserve Base, Massachusetts (Report No. D-2011-RAM-002)

This report provides the results of our audit of an American Recovery and Reinvestment
Act project at Westover Air Reserve Base, Massachusetts. We determined that the project
to repair the C-5 aircraft ramp and perimeter drainage at the Westover Air Reserve Base
was justified and met Recovery Act goals for accountability and transparency. We will
continue to review DOD's progress and issue subsequent reports and memoranda that will
discuss our evaluation of DOD's implementation of the American Recovery and
Reinvestment Act. We are making no recommendations and do not require a written
response. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).
                                                                         ,

                               ~~~A~Hh-
                                      Richard B. Jolliffe
                                      Assistant Inspector General
                                      Acquisition and Contract Management
>> This blank page represents the back side of the transmittal memorandum. <<
Report No. D-2011-RAM-002 (Project No. D2009-D000CE-0271.002)           November 9, 2010


                      Results in Brief: American Recovery and
                      Reinvestment Act of 2009 Funds Properly
                      Used to Repair the C-5 Aircraft Ramp and
                      Perimeter Drainage at Westover Air Reserve
                      Base, Massachusetts


What We Did                                         Figure 1. Section of C-5 Aircraft Service
Our objective was to review the planning,           Road at Westover Air Reserve Base,
funding, execution, and tracking and reporting      Massachusetts
of an American Recovery and Reinvestment Act
of 2009 (Recovery Act) project at Westover Air
Reserve Base, to determine whether Air Force
Reserve Command personnel complied with
Recovery Act requirements, Office of
Management and Budget guidance, the Federal
Acquisition Regulation, and DOD implementing
guidance.

What We Found
The project to repair the C-5 aircraft ramp and
perimeter drainage at the Westover Air Reserve
Base was justified and met the Recovery Act
goals for accountability and transparency. The
Air Force Reserve Command personnel
adequately planned, funded, executed, and
tracked and reported the project as required by
the Recovery Act, Office of Management and
Budget guidance, the Federal Acquisition            Source: U.S. Air Force Reserve Command
Regulation, and DOD implementing guidance.

What We Recommend
This report contains no recommendations.

Management Comments
The Air Force Reserve Command had no
comments on a discussion draft of this report.
>> This blank page represents the back side of the Results in Brief page. <<
Table of Contents

Introduction	                                                             1     


      Audit Objectives                                                    1

      Recovery Act Background                                             1

      Air Force Reserve Command Mission and Functions                     3

      Westover Air Reserve Base Mission and Functions                     4

      Review of Internal Controls at Westover Air Reserve Base            4


Proper Planning, Funding, Execution, and Tracking and Reporting of a 

Recovery Act Project to Repair the C-5 Aircraft Ramp and Perimeter 

Drainage at Westover Air Reserve Base                                     5


      Project Properly Planned                                            5

      Project Properly Funded                                             7

      Project Properly Executed                                           7

      Project Adequately Tracked and Reported                             8


Appendices

      A. 	Scope and Methodology                                           9

             Prior Audit Coverage                                        10     

      B. Recovery Act Criteria and Guidance 	                            11 

>> This blank page represents the back side of the Table of Contents page. <<
Introduction
Audit Objectives
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, execution, and
tracking and reporting of Recovery Act Project YTPM 05-3004 to repair the C-5 aircraft
ramp and perimeter drainage at Westover Air Reserve Base, Massachusetts, to determine
whether the efforts of the Air Force Reserve Command personnel complied with
Recovery Act requirements, OMB guidance, the Federal Acquisition Regulation (FAR),
and DOD implementing guidance. See Appendix A for a discussion of our scope and
methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest	 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. The funding
phase is to ensure that the funds were used for authorized purposes and distributed
properly to the projects. The project execution phase is to ensure that contracts awarded
with Recovery Act funds were transparent to the public, competed, and contained specific
FAR clauses for Recovery Act contract actions. The execution phase also ensures that
program goals were achieved; including specific program outcomes and improved results


                                                   1

on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that the benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32 March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide rationale for awarding of any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.


                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the components issue their implementation
guidance. OMB has issued 11 memoranda and 1 bulletin to address the implementing of
the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers Civil Works.
          DOD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                            Amount
                                                             (in millions)
  Energy Conservation Investment                                   $120
  Facilities Sustainment, Restoration, and Modernization          4,260*
  Homeowners Assistance                                             555
  Military Construction                                           2,185
  Near Term Energy-Efficient Technologies                           300
  U.S. Army Corps of Engineers Civil Works                        4,600
     Total                                                     $12,020*
*On August 10, 2010, Public Law 111-226, Title III, “Rescissions,” rescinded $260.5 million of funds from
DOD Operations and Maintenance Accounts supporting the Recovery Act. This reduced the DOD
Recovery Act FSRM amounts to approximately $4 billion and total DOD Agency-wide and Program-
Specific Recovery Act program funding to approximately $11.76 billion.

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
lines of appropriations.

Air Force Reserve Command Mission and Functions
The mission of the U.S. Air Force Reserve Command (AFRC) is to provide trained
units and qualified people for active duty in the U.S. Air Force in times of war or national
emergency and any other time that national security may require. AFRC consists of 5 Air
Reserve Bases, 4 Air Reserve Stations, and 3 Ranges and has components at 44 Air Force
tenant locations, 1 Navy tenant location, and 1 Army National Guard tenant location.
Headquarters, AFRC is located at Robins Air Force Base in Warner Robins, Georgia.
AFRC had a total of eight FSRM Recovery Act projects that were valued at
approximately $13.2 million. The projects were at three Air Force Reserve Bases and one
Air Force Reserve Station: March Air Reserve Base, Grissom Air Reserve Base,
Westover Air Reserve Base (Westover), and Minneapolis—St. Paul Air Reserve Station.




                                                   3

Westover Air Reserve Base Mission and Functions
Westover is the nation’s largest Air Force Reserve Base and is home to the Air Force’s
largest cargo aircraft, the C-5 Galaxy. More than 2,700 military and civilian personnel
are assigned to Westover’s 439th Airlift Wing, a unit of AFRC. The mission of the wing
is to provide worldwide air movement of troops, supplies, equipment, and patients. The
337th Airlift Squadron is Westover’s 439th Airlift Wing’s flying unit and operates the
C-5 Galaxy. The C-5 Galaxy specializes in missions involving oversized cargo that no
other aircraft can carry.

Westover had one Recovery Act project, estimated to cost $3.97 million, to repair the
C-5 aircraft ramp and perimeter drainage. The scope of the work included rehabilitating
the perimeter roadway and service aprons and modifying the existing storm drainage
system. This project also included evaluating and correcting drainage patterns and
resurfacing parking lots and other paved areas between and adjacent to the hangars.

Review of Internal Controls at Westover Air Reserve
Base
Westover’s internal controls over the planning, funding, execution, and tracking and
reporting of the Recovery Act project to repair the C-5 aircraft ramp and perimeter
drainage at Westover were effective as they applied to the audit objectives.




                                           4

Proper Planning, Funding, Execution, and
Tracking and Reporting of a Recovery Act
Project to Repair the C-5 Aircraft Ramp and
Perimeter Drainage at Westover Air Reserve
Base
Westover personnel adequately planned, funded, and executed the project to repair the
C-5 aircraft ramp and perimeter drainage system at Westover Air Reserve Base.
Westover personnel also appropriately tracked and reported the project as required by the
Recovery Act. The project met the Recovery Act goals for accountability and
transparency.

Project Properly Planned
Westover personnel adequately planned the Recovery Act project to repair the C-5
aircraft ramp and perimeter drainage system. Department of Defense (DD) Form 1391,
“Military Construction Project Data,” contained project justifications. DOD Regulation
7000.14-R, “DOD Financial Management Regulation,” requires DOD Components to use
a DD Form 1391 to support the request for authorization of both new construction and
urgent unforeseen projects using emergency or contingency authorization. Two specific
sections of the form (Items 10 and 11) provide details of the requirement for the proposed
project and how the current mission would benefit from the proposed project. Item 10,
Description of Proposed Construction, requires a clear and concise description of the
proposed construction including a complete outline of all principal features of the work.
Item 11, Requirement, includes a detailed, informative statement of why the project is
needed, how and under what conditions the requirement is presently being met, and the
manner and extent to which mission accomplishment would be affected if the project
were not approved.

The DD Form 1391 proposed improvements to the C-5 aircraft ramp and perimeter
drainage system and supported the project justification. The DD 1391 explained that the
asphalt roads and service aprons around the hangars showed signs of oxidation, were
cracked, and not structurally sound. In addition, poor water drainage and depressions in
the pavement caused water runoff to pool in front of the hangars, creating ponds.
According to the DD Form 1391, if repairs were not made and the deterioration was
allowed to continue, service roads would become impassable, accessibility to the hangars
and ramps would be limited, and the mission would be negatively impacted.

In planning for this project, Westover personnel contracted separately for an architecture
and engineering firm to assess the condition of the C-5 ramp and perimeter drainage. The
architecture and engineering firm found the pavement fatigued, cracked, unevenly
graded, and in need of repairs. As part of the assessment, the firm sampled the
underlying soil and evaluated its composition. The architecture and engineering firm

                                            5

also prepared drawings for the construction area and developed cost estimates.
Figures 2 and 3 document the condition of the asphalt service roads and C-5 aircraft
apron.

Figure 2. Deteriorated Asphalt




Source: U.S. Air Force Reserve Command

Figure 3. Deteriorated C-5 Aircraft Parking Apron




Source: U.S. Air Force Reserve Command


                                            6

Project Properly Funded
AFRC Headquarters personnel properly distributed Recovery Act funds to Westover for
the C-5 aircraft ramp and perimeter drainage system project. In April 2009, AFRC
Headquarters personnel informed Westover personnel that $3.97 million in Recovery Act
funds were reserved for the project and provided authorization to proceed with advanced
contracting actions. In May 2009, AFRC Headquarters personnel authorized and
allocated approximately $3 million in Operation and Maintenance Recovery Act funds to
the 439th Airlift Wing at Westover for the contract award. AFRC Headquarters
personnel, between October 2009 and August 2010, further authorized and allocated an
additional $.81 million to the project to fund contract modifications.

The total cost of repairs to the C-5 aircraft ramp and perimeter drainage project was less
than that reserved for the project, resulting in a savings of approximately $.17 million.
According to AFRC officials, the savings were used to offset the Air Force’s portion of
the $260.5 million in Recovery Act funds that DOD is required to return to the Treasury.

Project Properly Executed
Westover contracting personnel properly solicited and awarded a contract for the C-5
ramp project. Specifically, the project solicitation was transparent and competed. In
addition, the contract was awarded as a fixed-price contract and contained the specified
Recovery Act FAR clauses. Although the project was delayed and incurred additional
costs, this was necessary to achieve project goals.

Transparency and Recovery Act FAR Clauses
To ensure that transactions related to this Recovery Act project were transparent,
Westover contracting personnel posted a pre-solicitation notice on Federal Business
Opportunities (FBO). The pre-solicitation notice contained the required Recovery Act
language, and the synopsis clearly explained the nature of the work and informed the
public that only contractors that were awarded the Command-Wide Operations and
Maintenance Project Execution Contract (COMPEC) contract could submit a proposal.
The COMPEC contract was an indefinite-delivery, indefinite-quantity (IDIQ) contract
awarded by AFRC Headquarters to six businesses primarily for use by the AFRC host
installations and tenant locations. AFRC contracting personnel awarded the IDIQ
contract for a base period of 1 year with the potential for 4 additional 1-year options. The
limitations for placing orders against the contract were a minimum of $100,000 and a
maximum of $5 million. On April 24, 2009, AFRC contracting personnel issued a
modification to the COMPEC IDIQ contract to incorporate the FAR clauses required by
the Recovery Act.

Competition and Contract Award
Westover contracting personnel competed the project among the incumbent COMPEC
contractors and received five proposals. The contracting office awarded a firm-fixed-
price task order against the COMPEC IDIQ contract on June 26, 2009, to Geo-Marine
Inc., in the amount of approximately $2.99 million for the C-5 aircraft ramp and


                                             7
perimeter drainage project. Contracting personnel posted the award to the FBO Web site
and issued a notice to proceed to Geo-Marine on July 24, 2009.

Project Cost and Schedule
Contract progress reports and recipient reports indicated that as of June 30, 2010, repairs
to the C-5 aircraft ramp and perimeter drainage project were less than 50 percent
complete. AFRC personnel originally estimated that the work would be completed by
December 23, 2009; however, both the project cost and schedule changed because of the
differing site conditions that the contractor encountered at the start of project
performance. Specifically, soil conditions were different than those documented in the
original scope of work and project drawings. The contractor also discovered concrete
under the asphalt that needed to be removed so that proper pavement and drainage could
be installed. These differing site conditions resulted in a total cost increase of
approximately $.81 million. In addition, the project schedule was delayed by a winter
work stoppage. Westover personnel estimate that the contractor will complete the project
by December 7, 2010.

Project Adequately Tracked and Reported
Westover personnel had sufficient resources and procedures to track and report the
progress of the project as required by the Recovery Act. A project inspector provided
daily, on-site monitoring to ensure the contractor’s compliance with contract
requirements.

FAR Clause 52.204-11, “American Recovery and Reinvestment Act–Reporting
Requirements,” requires contractors for Recovery Act projects to report project
information at http://www.federalreporting.gov. Geo-Marine Inc. reported project
information to include the number of jobs created and total dollar value for the project as
required for the initial reporting period from February 1, 2009 through September 30,
2009. Geo-Marine Inc. provided subsequent quarterly updates on the Web site for the
periods October 1, 2009 through June 30, 2010.




                                             8

Appendix A. Scope and Methodology
We conducted this audit from August 2009 to November 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope
Project YTPM 05-3004 to repair the C-5 aircraft ramp and perimeter drainage system
was the only project ARFC submitted for Recovery Act funding for the 439th Airlift
Wing at Westover. The estimated cost of the project was $3.97 million. The contract
was awarded for $2.99 million.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
project execution, and tracking and reporting of Project YTPM 05-3004. We interviewed
key personnel at the Air Force Reserve Command Headquarters and the Westover Air
Reserve Base. We conducted a site visit to observe the C-5 aircraft ramp and surrounding
perimeter drainage area. We also reviewed documentation including the official contract
file, economic analysis, cost estimate, DD Form 1391, budget authorizations, and
associated support to determine whether Air Force Reserve personnel complied with
Recovery Act requirements, OMB guidance, the FAR, and DOD implementing guidance.
Specifically, we determined whether:

      the project was adequately planned to ensure the appropriate use of Recovery Act
       funds (Planning);
      funds were used for authorized purposes and properly distributed to the project
       (Funding);
      the contract was competed and awarded with full transparency and it contained
       the required Recovery Act FAR clauses (Project Execution);
      projects avoided unnecessary delays and cost overruns (Project Execution); and
      recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Tracking and Reporting).

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, FBO, www.federalreporting.gov,
and other systems to determine whether the project met the Recovery Act requirements
for accountability and transparency. We tested the accuracy of the computer-processed
data by obtaining copies of contracting, funding, and reporting project documentation


                                            9

from AFRC. We also interviewed AFRC personnel responsible for managing the project.
From these procedures, we concluded that the DoD data were sufficiently reliable for our
purposes.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Defense
agencies, Military Services, State National Guard units, and public works projects
managed by the USACE.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           10

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents:

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission Under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

                                          11

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
       of Job Estimates,” December 18, 20092

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

    	 OMB Memorandum M-10-34, “Updated Guidance on the American Recovery
       and Reinvestment Act,” September 24, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.


                                                     12

